Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



      ORIGINALLY AND
  DERIVATIVELY CLASSIFIED
   DOCUMENTS MET MOST
  FEDERAL REQUIREMENTS




                    Daniel R. Levinson
                     Inspector General

                       May 2013
                     OEI-07-12-00401
EXECUTIVE SUMMARY: ORIGINALLY AND DERIVATIVELY CLASSIFIED
DOCUMENTS MET MOST FEDERAL REQUIREMENTS
OEI-07-12-00401


WHY WE DID THIS STUDY

The Reducing Over-Classification Act of 2010 mandates that the Inspector General of
each agency of the United States with an officer or employee who is authorized to make
original classification decisions assess whether applicable classification policies have
been adopted, followed, and effectively administered; identify practices that may
contribute to misclassification of material; and review progress made pursuant to these
assessments. In addition, the Information Security Oversight Office (ISOO) requested
that Inspectors General review their agencies’ classified documents to determine whether
the information within them was classified in accordance with Federal requirements.
This report addresses ISOO’s request and identifies practices that may contribute to the
misclassification of material.

HOW WE DID THIS STUDY

We reviewed all documents the Department of Health and Human Services (HHS) had
originally classified as of August 2012 and a purposive sample of derivatively classified
documents to determine whether the information within them was classified in
accordance with Federal requirements.

WHAT WE FOUND

Of the 43 classified documents reviewed, 36 met all Federal requirements regarding
classified National Security Information (NSI). Seven of the reviewed documents (four
of the originally and three of the derivatively classified documents) lacked the required
markings.

WHAT WE RECOMMEND

We recommend that the Office of Security and Strategic Information (OSSI), working on
behalf of the Office of the Secretary, ensure that original classification authorities and
individuals who derivatively classify NSI receive guidance and training pertaining to the
required portion markings. We also recommend that OSSI take appropriate action to
apply the required portion markings to reviewed classified documents. OSSI concurred
with both recommendations and described actions to address them.
                   TABLE OF CONTENTS

                   Objective ......................................................................................................1 

                   Background ..................................................................................................1 

                   Methodology ................................................................................................7 

                   Finding .......................................................................................................11

                              Most documents reviewed adhered to all Federal requirements 

                              regarding classified NSI; four originally classified documents and 

                              three derivatively classified documents failed to meet Federal 

                              requirements regarding portion markings ......................................11

                   Conclusion and Recommendations ............................................................14 

                              Agency Comments and Office of Inspector General Response.....14 

                   Appendixes ................................................................................................15 

                              A: Determination of the Duration of Classification ......................15 

                              B: Exceptions to Automatic Declassification ...............................16 

                              C: Definition of Each Classification Level ...................................17 

                              D: Sample Selection for Derivatively Classified Documents .......18 

                              E: Agency Comments ...................................................................20 

                   Acknowledgments......................................................................................22





Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)
                   OBJECTIVE
                   To assess the extent to which the Department of Health and Human Services
                   (HHS) maintains classified information in accordance with applicable Federal
                   requirements regarding classified national security information (NSI).

                   BACKGROUND
                   Classified NSI is information that requires protection against unauthorized
                   disclosure and is marked to indicate its classified status.1 The Reducing
                   Over-Classification Act of 2010 (the Act) mandates that the Inspector General of
                   each agency of the United States with an officer or employee who is authorized to
                   make original classification decisions conduct two evaluations. One evaluation is
                   intended to (1) assess whether applicable classification policies, procedures, rules,
                   and regulations (policies) have been adopted, effectively administered, and
                   followed; and (2) identify policies, procedures, rules, regulations, or management
                   practices (practices) that may contribute to misclassification of material.2 This
                   evaluation must be completed by September 30, 2013. A second evaluation must
                   be completed by September 30, 2016, and must review progress made pursuant to
                   the results of the first evaluation.3 The report entitled HHS Has Adopted,
                   Administered, and Generally Followed Classified Information Policies
                   (OEI-07-12-00400) assessed whether polices have been adopted, effectively
                   administered, and followed. This report identifies practices that may contribute to
                   misclassification of information.4
                   In addition, the Information Security Oversight Office (ISOO) of the National
                   Archives and Records Administration requested that Inspectors General review
                   their agencies’ classified documents to determine whether the information within
                   them was classified in accordance with Federal requirements.5 This report also
                   addresses ISOO’s request.
                   Federal Requirements
                   Executive Order No. 13526, its implementing Directive,6 and the Act have all
                   directed Federal agencies to reduce unnecessary information classification or
                   information classification at a higher and more restrictive level than necessary.
                   This initiative is intended to promote information sharing across agencies; with
                   State, local, and tribal governments; and with the public.7

                   1
                     Executive Order No. 13526, published at 75 Fed. Reg. 707 (Jan. 5, 2010). 

                   2
                     P.L. 111-258, § 6.

                   3
                     Ibid. 

                   4
                     Both reports are being published concurrently. 

                   5
                     ISOO is responsible to the President for policy and oversight of the Governmentwide security 

                   classification system and the National Industrial Security Program. ISOO receives policy and 

                   program guidance from the National Security Council.

                   6
                     32 CFR pt. 2001, promulgated at 75 Fed. Reg. 37254 (June 28, 2010). 

                   7
                     S. Rept. No. 111-200, at 1-2 (2010). 



Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)               1
                   Executive Order No. 13526. In 2009, the President issued Executive Order
                   No. 13526, entitled Classified National Security Information.8 This Executive
                   Order sets forth a uniform system for classifying, safeguarding, and declassifying
                   NSI and outlines the method of implementation.
                   Implementing Directive: Classified National Security Information. Pursuant to
                   Executive Order No. 13526, ISOO issued a Directive9, 10 to provide guidance to
                   agencies regarding the classification system set forth in the Order, including
                   guidance on:
                           original classification,
                           derivative classification, and
                           declassification and downgrading.11, 12
                   Original Classification
                   “Original classification’’ is defined as an initial determination, in the interest of
                   national security, that information requires protection from unauthorized
                   disclosure.13 The Directive provides guidance to agencies for the following:
                           classification standards,
                           classification levels,
                           classification authority,
                           classification categories,
                           duration of classification,
                           identification and markings,
                           classification prohibitions and limitations, and
                           classification challenges.




                   8
                     Executive Order No. 13526, published at 75 Fed. Reg. 707 (Jan. 5, 2010).
                   9
                     Executive Order No. 13526 requires ISOO to issue directives as necessary to implement the 

                   uniform system for classifying, safeguarding, and declassifying NSI.

                   10
                      32 CFR pt. 2001, published at 75 Fed. Reg. 37254 (June 28, 2010). 

                   11
                      Ibid. at 37274–37275. 

                   12
                      The Directive also provides guidance regarding the (1) safeguarding of classified NSI, 

                   (2) standards for establishing and maintaining an ongoing agency self-inspection program, and
                   (3) standards for agency security education and training programs.
                   13
                      Executive Order No. 13526 § 6.1(ff).


Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)             2
                   Classification Standards. Information may be originally classified if all of the
                   following conditions are met:
                        an original classification authority (OCA) (i.e., an individual authorized to
                        classify information in the first instance) is classifying the information;14
                        	 the information is owned by, produced by or for, or is under the control of
                           the Federal Government;
                        	 the information falls within one or more of the classification categories
                           noted in Table 1; and
                        	 the OCA determines that unauthorized disclosure could reasonably be
                           expected to cause identifiable or describable damage to national security.15
                   Classification Levels. If the information meets all of the conditions above, then
                   the OCA must determine the level at which the information should be classified.
                   Information may be classified at one of three levels: (1) “Top Secret,”
                   (2) “Secret,” or (3) “Confidential.”16
                   Classification Authority. The authority to originally classify information may be
                   carried out by (1) the President and the Vice President, (2) agency heads and other
                   officials designated by the President, and (3) Government officials delegated the
                   authority to classify information.17 Officials authorized to classify information at
                   a specified classification level are also authorized to classify information at a
                   lower level.18
                   Classification Categories. Information may be originally classified if, in addition
                   to meeting the classification standards, it falls within one or more of the
                   categories in Table 1.




                   14
                      “Original classification authority” means an individual authorized in writing, by the President, 

                   the Vice President, agency heads (such as the Secretary), or other officials designated by the 

                   President, to classify information in the first instance. Executive Order No. 13526 § 6.1(gg). 

                   15
                      32 CFR § 2001.10; Executive Order No. 13526 § 1.1(a).

                   16
                      Executive Order No. 13526 § 1.2(a). 

                   17
                      Executive Order No. 13526 § 1.3(a). Agency heads are responsible for ensuring that 

                   subordinate officials delegated responsibility have a demonstrable and continuing need to carry 

                   out this original classification authority. 

                   18
                      Executive Order No. 13526 § 1.3(b). 



Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)                  3
      Table 1: Codes and Categories for Classification

       Code                                                                                                               Category


       A                                                                          Military plans, weapons systems, or operations

       B                                                                                          Foreign government information

       C                         Intelligence activities (including covert action), intelligence sources or methods, or cryptology

       D                              Foreign relations or foreign activities of the United States, including confidential sources

       E                                          Scientific, technological, or economic matters relating to the national security

       F                                             U.S. Government programs for safeguarding nuclear materials or facilities

       G                   Vulnerabilities or capabilities of systems, installations, infrastructures, projects, plans, or protection
                                                                                           services relating to the national security

       H                                                      Development, production, or use of weapons of mass destruction

     Source: Executive Order No. 13526 § 1.4 and 32 CFR § 2001.21.


                    Duration of Classification. Mandatory automatic declassification19 standards
                    apply to all agencies that have original classification authority, previously had
                    original classification authority, or maintain NSI.20 At the time of original
                    classification, the OCA must establish a date or event for declassification based
                    on the duration of the national security sensitivity of the classified information.
                    Upon reaching the stated date or event, the information must be declassified
                    automatically.21 See Appendix A for a summary regarding the determination of
                    the duration of classification.
                    Identification and Markings. Standard markings or other indicia must be applied
                    to classified information at the time of original classification.22 The identification
                    and markings must include (1) the name and position, or personal identifier, of the
                    OCA; (2) the agency and office of origin; (3) the reason(s) for the classification;
                    and (4) declassification instructions (e.g., the declassification date). The OCA
                    must identify the reason(s) for the decision to classify as well as the
                    corresponding code indicating the classification category as listed in Table 1.
                    Markings must be uniformly and conspicuously applied so as to leave no doubt
                    about the classified status of the information, the level of protection required, and
                    the duration of classification. The agency originating the classified document


                    19
                       “Automatic declassification” means the declassification of information solely on the basis of the
                    occurrence of a specific date or event as determined by the OCA, or the expiration of a maximum
                    timeframe for duration of classification established under the Executive Order. Executive Order
                    No. 13526 § 6.1(e).
                    20
                       32 CFR § 2001.30; Executive Order No. 13526 § 3.3.
                    21
                       Executive Order No. 13526 § 1.5; 32 CFR § 2001.12.
                    22
                       Executive Order No. 13526 § 1.6; 32 CFR § 2001.21.


Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)                                    4
                   must indicate which portions (e.g., paragraphs) of the document are classified.23
                   Specifically:
                            Each portion of a document, ordinarily a paragraph, but including
                            subjects, titles, graphics, tables, charts, bullet statements, sub-paragraphs,
                            classified signature blocks, bullets and other portions within slide
                            presentations, and the like, shall be marked to indicate which portions are
                            classified and which portions are unclassified by placing a parenthetical
                            symbol immediately preceding the portion to which it applies.24
                   Classification Prohibitions and Limitations. Information may not be classified or
                   continue to be maintained as classified for the purpose of:
                        	 concealing violations of law, inefficiency, or administrative error;
                        	 preventing embarrassment to a person, organization, or agency;
                        	 restraining competition; or
                        	 preventing or delaying the release of information that does not require
                           protection in the interest of the national security.25
                   After information is declassified and properly released to the public, the
                   information may not be reclassified unless certain exceptions are met.26
                   Conversely, information that has not previously been disclosed to the public under
                   proper authority may be classified or reclassified after an agency has received a
                   request for it under the Freedom of Information Act, the Presidential Records Act,
                   the Privacy Act of 1974, or the mandatory review provisions of Executive Order
                   No. 13526.27
                   Classification Challenges. Authorized holders of information who, in good faith,
                   believe that the information’s classification status is improper are encouraged and
                   expected to challenge the classification status in accordance with agency
                   procedures. Agencies must establish procedures to ensure that (1) individuals are
                   not subject to retribution for challenging classification status, (2) an opportunity is
                   provided for review by an impartial official or panel, and (3) individuals are
                   advised of their right to appeal agency decisions to the Interagency Security
                   Classification Appeals Panel established under Executive Order No. 13526.28

                   23
                      Executive Order No. 13526 § 1.6(5)(c).

                   24
                      32 CFR § 2001.21(c). 

                   25
                      Executive Order No. 13526 § 1.7.

                   26
                      Executive Order No. 13526 § 1.7(c). When reclassifying information, the OCA must include

                   the following: (1) level of classification; (2) identity, by name and position or by personal 

                   identifier, of the OCA; (3) declassification instructions; (4) a concise reason for classification, 

                   including reference to the applicable classification category; and (5) date the reclassification action 

                   was taken. 32 CFR § 2001.24(l). 

                   27
                      Executive Order No. 13526 § 1.7(d). 

                   28
                      Executive Order No. 13526 § 1.8; 32 CFR § 2001.14.



Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)                   5
                   Derivative Classification
                   ‘‘Derivative classification’’ is defined as incorporating, paraphrasing, restating, or
                   generating information that is already classified and marking the material
                   consistent with the classifications that apply to the original information.29
                   Individuals who apply derivative classification markings need not have original
                   classification authority, but must indicate their identity in a manner that is
                   immediately apparent for each derivative classification action. Individuals who
                   apply derivative classification markings must transfer the pertinent classification
                   markings to any newly created documents.30
                   Declassification and Downgrading
                   OCAs must attempt to assign a date or event upon which classified information
                   will be declassified. Generally, the duration is not to exceed 25 years, except
                   when the information relates to a confidential informant or weapons of mass
                   destruction.31 See Appendix A for a summary regarding the determination of the
                   duration of classification. When information no longer meets the standards for
                   classification, it must be declassified or downgraded by the official who
                   authorized the original classification, the original classifier’s current successor, a
                   supervisory official, or an official delegated as a declassification authority.32
                   Information that continues to meet the classification requirements requires
                   continued protection. However, in exceptional cases in which agencies determine
                   that the need to protect classified information is outweighed by the public interest
                   in disclosure, the information should be declassified. Questions concerning these
                   exceptional cases must be referred to the agency head or senior agency officials.33
                   Automatic Declassification. Regardless of whether they have been reviewed, all
                   classified records that (1) are more than 25 years old and (2) have been
                   determined to have permanent historical value must be automatically
                   declassified.34 Documents may be exempted from automatic declassification if
                   the ultimate release of the information would clearly and demonstrably be
                   expected to seriously impair national security at the end of the 25-year
                   classification period.35 See Appendix B for a summary regarding the exceptions
                   to automatic declassification.


                   29
                      Executive Order No. 13526 § 6.1(o). 

                   30
                      Executive Order No. 13526 § 2.1(b); 32 CFR § 2001.22.

                   31
                      Executive Order No. 13526 § 1.5; 32 CFR § 2001.12(a). 

                   32
                      Executive Order No. 13526 § 3.1.

                   33
                      Executive Order No. 13526 § 3.1(d). 

                   34
                      Executive Order No. 13526 § 3.3; see also 32 CFR § 2001.30, which states, “All departments 

                   and agencies that have original classification authority or previously had original classification

                   authority, or maintain records determined to be permanently valuable that contain classified

                   national security information, shall comply with the automatic declassification provisions of the 

                   Order.”

                   35
                      Executive Order No. 13526 § 3.3; 32 CFR § 2001.26.


Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)                 6
                   HHS’s Classified NSI Program
                   The Secretary of HHS (Secretary) serves as OCA for HHS and may classify
                   documents up to the “Secret” classification level.36, 37 The Secretary has delegated
                   to the Deputy Secretary, the Director of HHS’s Office of Security and Strategic
                   Information (OSSI), and the Associate Director of OSSI the authority to originally
                   classify and declassify information.38, 39 The Director of OSSI is responsible for
                   departmentwide policy development, management, and oversight of the classified
                   NSI program.40
                   HHS’s Maintenance of Classified Documents
                   Originally and derivatively classified documents may be either retained in
                   hardcopy or stored electronically. HHS’s electronic documents are accessed on
                   either of two classified information technology (IT) systems owned by the
                   Department of Homeland Security (DHS) or the Department of Defense (DOD).
                   All originally classified documents are retained in hardcopy format. Although
                   some derivatively classified documents are retained in hardcopy format
                   (e.g., briefing slides, Daily Intelligence Readbook),41 the majority are stored
                   electronically on the IT systems owned by DHS or DOD.

                   METHODOLOGY
                   We reviewed all documents HHS had originally classified as of August 2012 and
                   a purposive sample of derivatively classified documents to determine whether the
                   information within them was classified in accordance with Federal requirements.




                   36
                      Executive Order 13526 § 6.1(gg).

                   37
                      See Appendix C for a description of each classification level. 

                   38
                      The Director of OSSI is also known as and has the official title of Deputy Assistant Secretary 

                   for Security within HHS and is the Senior Intelligence Officer. 

                   39
                      OSSI, HHS National Security Handbook, February 17, 2012. 

                   40
                      OSSI, Classified National Security Information Policy, January 9, 2012. 

                   41
                      OSSI officials indicated that HHS produces three types of derivatively classified documents; 

                   each type of document is stored differently. These three types are: (1) briefing slides, (2) Daily 

                   Intelligence Readbook documents (Readbook), and (3) emails. Briefing slides are generally 

                   produced for the Deputy Secretary of HHS and other HHS leadership; these documents may be 

                   maintained in hardcopy format. The Readbook is produced to brief OSSI leadership; these 

                   documents are maintained in hardcopy format. Derivatively classified emails are produced as

                   responses to original classification decisions made by other Federal agencies. These emails are 

                   stored electronically on the IT systems owned by DHS and DOD.



Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)                  7
                   Population and Sample Selection
                   At the time of our review, the population of classified documents included
                   13 originally classified documents42 and approximately 700 derivatively classified
                   documents. We reviewed all 13 originally classified documents and a purposive
                   sample of 30 derivatively classified documents. See Table 2 for an illustration of
                   the population and sample sizes.
                  Table 2: Originally and Derivatively Classified Documents

                    Document Type                                                      Population                              Sample Size

                    Originally Classified                                                         13                                        13

                    Derivatively Classified                                                     700                                         30

                        Total                                                                   713                                         43

                  Source: Office of Inspector General (OIG) analysis of HHS’s originally and derivatively classified documents, 2012.

                   With the assistance of OSSI, we chose a purposive sample that would enable us to
                   determine whether the information within these documents was classified in
                   accordance with Federal requirements.43 In selecting this sample, we did not
                   intend to project the results of our review of derivatively classified documents.
                   Rather, we intended for our review to provide a general representation of whether
                   derivatively classified documents were classified in accordance with Federal
                   requirements. The derivatively classified documents included 12 hardcopy
                   documents (8 briefing slides and 4 Readbook documents) and 18 printed emails.44
                   See Appendix D for a description of the sample selection.
                   Document Review
                   For each sampled document, we completed a structured review instrument to
                   determine whether the classification of original and derivative information
                   complied with Federal requirements.
                   Originally classified documents were determined to have been classified in
                   accordance with Federal regulations if all of the requirements listed below were
                   met:


                   42
                      During preinspection discussions, OSSI indicated that there were 15 originally classified
                   documents for review. Once we began our review, we learned that 2 of the 15 documents had
                   been declassified in May 2011. As a result, only 13 of the originally classified documents were
                   pertinent to our review.
                   43
                      The majority of derivatively classified documents are stored on IT systems owned by DHS and
                   DOD and cannot be accessed by individuals who have not been granted access by the owners of
                   the systems. OSSI officials have access to these IT systems and assisted us in selecting the
                   sample.
                   44
                      OSSI officials selected 22 derivatively classified emails for review. Four of these emails were
                   directly related to four Readbook documents selected for review. As a result, these four emails
                   were combined with their respective Readbook documents to make a single derivatively classified
                   document. Thus, the sample of derivatively classified documents consisted of 12 hardcopy
                   documents and 18 printed emails.


Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)                                        8
                        	 the decision to classify the information was exercised by an individual
                           possessing original classification authority;
                        	 the information was owned by, produced by or for, or under the control of
                           the Federal Government;
                        	 the information fell within one or more of the classification categories
                           noted in Table 1;
                        	 when asked, the OCA described damage to national security that could be
                           expected in the event of the information’s unauthorized disclosure;45
                        	 the information was not prohibited or limited from receiving classification
                           (e.g., the information was not classified to conceal violations of the law,
                           inefficiency, or administrative error);
                        	 the OCA established a specific date or event for declassification; and
                        	 the following identification and markings were included: portion
                           marking; overall classification; the name and position, or personal
                           identifier, of the original classification authority; the agency and office of
                           origin; the reason(s) for the classification; and declassification instructions
                           (e.g., the declassification date).
                   Derivatively classified documents were determined to have been classified in
                   accordance with Federal regulations if all of the requirements listed below were
                   met:
                        	 the information was related to the reproduction, extraction, or summation
                           of information that was already classified;
                        	 the person who applied the derivative classification was identified on the
                           document by name and position or personal identifier;
                        	 the information was marked consistently with the classification markings
                           that apply to the original information (i.e., the derivative classification
                           includes the pertinent classification markings that were included on the
                           originally classified document);
                        	 the information was owned by, produced by or for, or under the control of
                           the Federal Government;
                        	 the information fell within one or more of the classification categories
                           noted in Table 1;


                   45
                     OCAs are not required to provide in writing a description of the damage to national security that
                   could be expected in the event of the information’s unauthorized disclosure. To determine
                   whether this requirement was met, we asked the OCA who classified the information to describe
                   the damage to national security that could be expected in the event of the information’s
                   unauthorized disclosure.


Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)               9
                        	 the information was not prohibited or limited from receiving classification
                           (e.g., the information was not classified to conceal violations of the law,
                           inefficiency, or administrative error); and
                        	 the following identification and markings were included: portion 

                           marking; overall classification; the name and position, or personal 

                           identifier, of the person applying the derivative classification; and 

                           declassification instructions (e.g., the declassification date). 

                   Standards
                   This study was conducted in accordance with the Quality Standards for Inspection
                   and Evaluation issued by the Council of the Inspectors General on Integrity and
                   Efficiency.




Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)     10
                   FINDING
                   Most classified documents reviewed adhered to all Federal
                   requirements regarding classified NSI; four originally
                   classified documents and three derivatively classified
                   documents failed to meet Federal requirements regarding
                   portion markings
                   Of the 43 HHS classified documents reviewed, 36 met all Federal requirements
                   regarding classified NSI (see Table 3).
                   Table 3: Classified Documents That Met Federal Requirements

                                                                                               Number That Met All Federal
                    Type                                                       Sample Size
                                                                                                            Requirements

                    Originally Classified                                              13                                 9

                    Derivatively Classified                                            30                                27

                        Total                                                          43                                36

                   Source: OIG analysis of HHS’s classified documents, 2012.

                   OCAs must originally classify NSI in accordance with Federal requirements.
                   Nine of the originally classified documents met all Federal requirements;
                   however, four lacked portion markings on various pages and paragraphs.
                   Specifically, two documents were missing the required paragraph markings, one
                   was missing the required page markings, and one was missing both. Portion
                   markings indicate which portions are classified and which are unclassified within
                   the same document. These different portions are marked separately in order to
                   avoid overclassification. See Table 4 for the number of originally classified
                   documents that met each Federal requirement.




Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)                    11
                   Table 4: Originally Classified Documents That Met Federal Requirements

                                                                                                   Documents
                    Requirement
                                                                                                       (n=13)

                    Decision to classify the information was exercised by
                                                                                                             13
                    an OCA

                    Information was owned by, produced by or for, or
                                                                                                             13
                    under the control of the Federal Government

                    Information fell within one or more of the classification
                                                                                                             13
                    categories

                    The OCA described damage to national security that
                    could be expected in the event of the information’s                                      13
                    unauthorized disclosure

                    Classification of the information was not prohibited or
                                                                                                             13
                    limited

                    The OCA established a specific date or event for
                                                                                                             13
                    declassification

                    Portion markings were present                                                             9

                    Overall classification level was present                                                 13

                    “Classified by” line was present                                                         13

                    Reason for classification was present                                                    13

                    “Declassify on” line was present                                                         13

                          Total That Met All Requirements                                                     9

                   Source: OIG analysis of originally classified documents, 2012.

                   Individuals who derivatively classify NSI must do so in accordance with Federal
                   requirements. Twenty-seven of the thirty derivatively classified documents
                   sampled for review met all of these requirements. Three derivatively classified
                   documents lacked the required portion markings, but met all other Federal
                   requirements. Specifically, all three documents were missing required paragraph
                   markings. See Table 5 for the number of sampled derivatively classified
                   documents that met the Federal requirements.




Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)        12
                   Table 5: Derivatively Classified Documents That Met Federal Requirements

                                                                                                   Documents
                    Requirement
                                                                                                       (n=30)

                    Information was related to the reproduction, extraction,
                                                                                                             30
                    or summation of information that was already classified

                    Person who applied the derivative classification was
                    identified on the document by name and position or                                       30
                    personal identifier

                    Information was marked consistently with the
                    classification markings that apply to the original                                       30
                    information

                    Information was owned by, produced by or for, or
                                                                                                             30
                    under the control of the Federal Government

                    Information fell within one or more of the classification
                                                                                                             30
                    categories

                    Classification of the information was not prohibited or
                                                                                                             30
                    limited

                    Portion markings were present                                                            27

                    Overall classification level was present                                                 30

                    “Classified by” line was present                                                         30

                    “Declassify on” line was present                                                         30

                          Total That Met All Requirements                                                    27

                   Source: OIG analysis of derivatively classified documents, 2012.




Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)        13
                   CONCLUSION AND RECOMMENDATIONS
                   Of the 43 HHS classified documents reviewed, 36 met all Federal requirements
                   regarding classified NSI. Seven of the documents (four of the originally and three
                   of the derivatively classified documents) lacked the required portion markings.
                   Portion markings indicate which portions are classified and which are unclassified
                   within the same document. These different portions are marked separately to
                   avoid overclassification. Therefore, we recommend that OSSI, working on behalf
                   of the Office of the Secretary:
                   Ensure That OCAs and Individuals Who Derivatively Classify NSI
                   Receive Guidance and Training Regarding the Required Portion
                   Markings
                   OSSI should ensure that OCAs and individuals who derivatively classify
                   information are aware of their responsibility to include required portion markings
                   on all classified documents. OSSI should also provide guidance and training on
                   the required portion markings to avoid overclassification of information.
                   Take Appropriate Action To Apply the Required Portion Markings to
                   Reviewed Classified Documents
                   We will provide information regarding the classified documents that did not
                   include the required portion markings. OSSI should apply the required
                   portion markings to these documents.

                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   OSSI concurred with both recommendations. In response to the first
                   recommendation, OSSI stated that it ensures that all individuals who handle
                   classified information have attended initial mandatory training and, when
                   appropriate, annual refresher training in marking classified NSI. OSSI also stated
                   that it ensures that OCA training is provided to the HHS Secretary and Deputy
                   Secretary. Further, OSSI stated that it conducted derivative marking training for
                   Classification Security Officers and personnel.
                   In response to the second recommendation, OSSI indicated that it would review
                   and correct the errors found by OIG during its review of the originally and
                   derivatively classified documents.
                   We did not make any changes to the report based on OSSI’s comments.




Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)   14
                   APPENDIX A
                   Determination of the Duration of Classification
                   Pursuant to Executive Order No. 13526, the Information Security Oversight
                   Office (ISOO) issued a Directive.46, 47 According to this Directive, the original
                   classification authority (OCA) is required to attempt to determine a date or event
                   that is less than 10 years from the date of original classification and that coincides
                   with the lapse of the information’s national security sensitivity and to assign such
                   date or event as the declassification instruction. If the OCA is unable to
                   determine a date less than 10 years after the original classification, he or she must
                   assign a declassification date of exactly 10 years. If the OCA is unable to assign a
                   10-year declassification date, he or she must assign a declassification date not to
                   exceed 25 years from the date of the original classification decision.48
                   Exceptions to this timeline apply to special categories of information, such as
                   information that should clearly and demonstrably be expected to reveal the
                   identity of a confidential source of intelligence or key design concepts of weapons
                   of mass destruction. These special categories may be assigned a declassification
                   date up to 75 years from the date of the original classification.49




                   46
                      Executive Order No. 13526 requires ISOO to issue directives as necessary to implement the 

                   uniform system for classifying, safeguarding, and declassifying national security information.

                   47
                      32 CFR pt. 2001; 75 Fed. Reg. 37254 (June 28, 2010). 

                   48
                      32 CFR § 2001.12(a)(1).

                   49
                      32 CFR § 2001.12(a)(2).



Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)               15
                   APPENDIX B
                   Exceptions to Automatic Declassification50
                   An agency head may exempt information from automatic declassification if the
                   release of the information is clearly and demonstrably expected to:
                   (1) reveal the identity of a confidential human source, a human intelligence
                       source, a relationship with an intelligence or security service of a foreign
                       government or international organization, or a nonhuman intelligence source;
                       or impair the effectiveness of an intelligence method currently in use,
                       available for use, or under development;
                   (2) reveal information that would assist in the development, production, or use of
                       weapons of mass destruction;
                   (3) reveal information that would impair U.S. cryptologic systems or activities;
                   (4) reveal information that would impair the application of state-of-the art
                       technology within a U.S. weapon system;
                   (5) reveal formally named or numbered U.S. military war plans that remain in
                       effect, or reveal operational or tactical elements of prior plans that are
                       contained in such active plans;
                   (6) reveal information, including foreign government information, that would
                       cause serious harm to relations between the United States and a foreign
                       government, or to ongoing diplomatic activities of the United States;
                   (7) reveal information that would impair the current ability of U.S. Government
                       officials to protect the President, Vice President, and other protectees for
                       whom protection services, in the interest of the national security, are
                       authorized;
                   (8) reveal information that would seriously impair current national security
                       emergency preparedness plans or reveal current vulnerabilities of systems,
                       installations, or infrastructures relating to the national security; or
                   (9) violate a statute, treaty, or international agreement that does not permit the
                       automatic or unilateral declassification of information at 25 years.




                   50
                        This information is taken directly from Executive Order No. 13526 § 3.3(b); 32 CFR § 2001.26.


Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)               16
                   APPENDIX C
                   Definition of Each Classification Level
                   Information may be classified at one of three levels: “Top Secret,” “Secret,” and
                   “Confidential.” Below is a definition of each classification level.
                   Top Secret is “applied to information, the unauthorized disclosure of which
                   reasonably could be expected to cause exceptionally grave damage to the national
                   security that the original classification authority is able to identify or describe.”51
                   Secret is “applied to information, the unauthorized disclosure of which reasonably
                   could be expected to cause serious damage to the national security that the
                   original classification authority is able to identify or describe.”52
                   Confidential is “applied to information, the unauthorized disclosure of which
                   reasonably could be expected to cause damage to the national security that the
                   original classification authority is able to identify or describe.”53




                   51
                      Executive Order No. 13526 § 1.2.

                   52
                      Ibid. 

                   53
                      Ibid. 



Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)     17
                   APPENDIX D
                   Sample Selection for Derivatively Classified Documents
                   The Office of Security and Strategic Information (OSSI) assisted us in selecting a
                   purposive sample of 30 derivatively classified documents for review.54 Below is a
                   description of the process that OSSI used to select the purposive sample.
                   Hardcopy derivatively classified documents. According to the Associate Director
                   for the Strategic Intelligence Division of OSSI, few derivatively classified
                   documents are retained in hardcopy format. He indicated that the hardcopy
                   documents chosen for review were not randomly selected. Rather, he made
                   copies of the hardcopy derivatively classified documents that he possessed and
                   provided them for our review. This resulted in a total of 12 hardcopy
                   documents—8 briefing slides and 4 Readbook documents.
                   Electronic derivatively classified documents. The majority of derivatively
                   classified documents were stored electronically as email responses to original
                   classification decisions made by other Federal agencies. These emails were
                   stored electronically on information technology (IT) systems owned by the
                   Department of Homeland Security and the Department of Defense. Below is a
                   description of OSSI’s process for selecting the derivatively classified emails
                   included in our review.
                   (1) The Associate Director for the Strategic Intelligence Division of OSSI
                       numbered pieces of paper 1 through 30.
                   (2) Four OSSI employees were instructed to select five of the numbered pieces of
                       paper each.
                   (3) The four employees were then instructed to access their “sent” folders in their
                       email accounts and choose the emails that corresponded to the first number
                       that they had randomly selected (e.g., if the number selected was 25, the
                       employee scrolled down his/her “sent” folder to the 25th email).55
                   (4) The email was printed for review.



                   54
                      OSSI officials indicated that HHS produces three types of derivatively classified documents;
                   each type is stored differently. These three types are: (1) briefing slides, (2) Daily Intelligence
                   Readbook documents (Readbook), and (3) emails. Briefing slides are generally produced for the
                   Deputy Secretary of HHS and other HHS leadership; these documents may be maintained in
                   hardcopy format. The Readbook is produced to brief OSSI leadership; these documents are
                   maintained in hardcopy format. Derivatively classified emails are produced as responses to
                   original classification decisions made by other Federal agencies. These emails are stored
                   electronically on the IT systems owned by the Department of Homeland Security and the
                   Department of Defense.
                   55
                      If a selected number corresponded to an email that was unclassified, the employee was
                   instructed to move to the next email in succession.


Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)                 18
                   (5) Steps 3 and 4 were repeated until each of the four employees had selected 

                       5 emails, for a total of 20. 

                   Two additional emails were selected by the Associate Director for the Strategic
                   Intelligence Division using the same process, resulting in a total of 22 derivatively
                   classified emails selected for review. However, 4 of the 22 emails were directly
                   related to four Readbook documents selected for review. As a result, these four
                   emails were combined with their respective Readbook documents to create a
                   single, derivatively classified document. Thus, the sample of derivatively
                   classified documents consisted of 12 hardcopy documents and 18 printed emails.
                   See Table D-1 for the types of derivatively classified documents included in our
                   review and sample sizes.
                Table D-1: Derivatively Classified Documents Selected for Review


                  Type of Document                                Number of Documents Selected                        Sample Size


                  Briefing slide                                                                           8                        8

                  Readbook document                                                                        4                        4

                  Email                                                                              22*                          18

                     Total                                                                             34                         30

                *Four of the twenty-two emails were directly related to the four Readbook documents selected for review. These 4 emails were
                attached to the respective Readbook documents to make up a single derivatively classified Readbook document, resulting in
                18 emails.
                Source: Office of Inspector General analysis of derivatively classified documents, 2012.




Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)                                        19
                    APPENDIX E
                    Agency Comments




      , ........,

     If_
    A	
     • 	 Jf't"
                                                         DEPARTMBIT Of' HEALIH & HUMAN SERVtCES
                                                         Office~ and Sb1JIBgic lnformatiou
     ~~ -------------------------------------------------------------------­
                                                      February 22. 2012

              To:      Daniel R , Levinson
                       Inspector Genet'al for Evaluation and Inspections
                       Department of Health & Human Setvlc:es

              From:    Of. Joy Miller
                                        /S/
                       Deputy Asslstant Secte\ary for Secunty
                       Ofl1ce of Security and Strategic Information (OSSI)
                       Secte1ary's Senior lnte!Jigence Official

              Subject: OSSI Response to Draft Firlal OIG Reports, dated 29 January 2013

              References:
                      Q!G Report OEI-07·12-00400 (Dra11) HHS Adopted, Admintsteted, and Generally Followed
              ~         lnfor'm8tion Policies, (OEI.07-12..()()400)

                      OIG Report OEI.07-12.()().401 (Otaf'l) Originally and Derivatively Classified Documents Met
              Most Federal Reql.irements, (0EI.07-12-00401)
              1. Purpose. To proylde responses to OlG recommendations as noted In the reference repons.

              2 . Background. The Reduci'tg Over-Ciassific:ation Ad of 2010 manclated that the Inspector
              General for each federal goyemment ~ Of' depat1ment Who haYe employees authorized to
              make otiginal ~ decisions conduct two evakJations. One evaluation is inrended to
              assess whether appk.able da.salloc:ation polides haYe been ~. effec:tively adminiAered, and
              ~:and the OCher to Identity ~ tNit may CMtribute to~ of rnatelial.
              These evaluations wll be completed by 30 ~bef. 2013. Then, a second evaluation, to be
              completed by 30 ~. 2016 must review progress made pursuant to the results of the first
              evaluation. The HHS Special Security Officer (SSO) serves as lead fof c:oordlnating Department
              wide implementation of the HHS Classified National Security lnformaotion (NSI) Policy.

              3 OIG Report OEI-07-12..()0400 (Otaf'l). This OIG report 8ddres$ed the first required eY1IIuation
              and assessed whether HHS had adopted, effect~ aclmlnlstered. and followed poiklele regarding
              Classified NSI.

                      A. 	 Q!G Recommenc:!ltic!. Clarify who is responsible for ensuring that Classification
                           Security Offic:era (CSO) receive traltllng.

                      8 	 OSS! Response. Concur. QSSI is In the process of revising the HHS ClaSsified
                          NatlonGI Security lnfonnation Handbook, dated 17 February 2012 to ensure
                          OPISTAFF OIV CSOs are aware of their responsibility to prOYide their dMsions wdh
                          guidance and ovet"'ight on the handling and safeguarding of classified NSI.
                          Adcfitionally, OSSI retasued the Cllmifiecl NSI Polley and Handbook to all OP/STAFF
                          OtV CSOa in mid-Oec:ember 2012, to ensure each had their own copy of the
                          handbook, regardless of whether their ciMsions deve4op Of' maintain clasaified
                            infcm\atlon.

                      C. 	 OIG Recommendttk!n. Ensure that all Classification Security Officers receive
                            guiclan<:e and tnalnlng regarding Classified National Security Information.




                                                                  1




Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07- 12-00401)                   20
Note: The Office of Security and Strategic Information did not include any editorial or technical comments in the attachments
referenced in its response.




Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)                                21
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Pattison, Regional
                   Inspector General for Evaluation and Inspections in the Kansas City regional
                   office, and Brian T. Whitley, Deputy Regional Inspector General.
                   Rae Hutchison served as the project leader for this study. Other Office of
                   Evaluation and Inspections staff from the Kansas City regional office who
                   conducted the study include Michael J. Brown and Jordan R. Clementi. Central
                   office staff who provided support include Althea Hosein, Debra Roush, and
                   Talisha Searcy. Office of Investigations staff who provided support include Asher
                   Shapiro.




Originally and Derivatively Classified Documents Met Most Federal Requirements (OEI-07-12-00401)   22
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
